                          Department of the Interior
                          Office of Inspector General



              AUDIT REPORT




              U.S. Fish and Wildlife Service
            Wildlife and Sport Fish Restoration
               Program Grants Awarded to
                   the State of Wyoming,
               Game and Fish Department,
         From July 1, 2005, Through June 30, 2007




Report No. R-GR-FWS-0005-2008        September 2008
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                              September 26, 2008
                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina Bruner
           Regional Manager, Eastern Region

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Wyoming, Game and Fish Department, From July 1,
           2005, Through June 30, 2007 (No. R-GR-FWS-0005-2008)

        This report presents the results of our audit of costs incurred by the State of Wyoming
(State), Game and Fish Department (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program (the Program). The audit included claims totaling approximately $22
million on four grants that were open during State fiscal years (SFYs) ended June 30 of 2006 and
2007 (see Appendix 1). The audit also covered Department compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of hunting and
fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we found that the Department did not report barter
transactions on its financial status reports and used outdated information for its fishing license
certifications. We also found that while progress has been made on implementing two open
recommendations from our last audit, which are related to real property, the Department is still in
the process of implementing one of those recommendations.

       We provided a draft report to FWS and the Department for a response. Based on the
Department and the FWS responses regarding revisions the FWS made to its Service Manual
after we issued our draft report, we consider the recommendations on barter transactions resolved
and implemented. We summarized the Department and FWS Region 6 responses after each
recommendation, as well as our comments on the responses. We list the status of each
recommendation in Appendix 3.
        Please respond in writing to the findings and recommendations included in this report by
December 26, 2008. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader,
Mr. Chris Krasowski or me at 703–487–5345.

cc:   Regional Director, Region 6, U.S. Fish and Wildlife Service




                                                2
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $22 million on the four grants that were open
during SFYs 2006 and 2007 (see Appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at Department headquarters in Cheyenne, WY,
and visited two regional offices, four wildlife habitat management areas, two laboratories, seven
public access areas, a rearing station, and a wildlife research center (see Appendix 2). We
performed this audit to supplement, not replace, the audits required by the Single Audit Act
Amendment of 1996 and by Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          3
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department; and

   •   whether the State passed required legislation assenting to the provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage
On April 22, 2004, we issued “Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the State of Wyoming, Game and Fish Department, from
July 1, 2000, through June 30, 2002” (No. R-GR-FWS-0030-2003). We followed up on all
recommendations in the report and found that the Department of the Interior, Office of Assistant
Secretary for Policy, Management and Budget (PMB) considered all recommendations resolved
and all but two recommendations implemented. The two unimplemented recommendations
require the Department to maintain a list of real property and follow guidance for disposal of
land interests acquired with Program funds. We discuss the progress the State has made in
implementing these recommendations in our Findings and Recommendations section of this
report.




                                                4
We reviewed Wyoming’s Comprehensive Annual Financial Reports for SFYs June 30, 2006 and
2007 and the Single Audit Report ending June 30, 2006. None of these reports contained any
findings that would directly impact the Department’s Program grants or programs under the
grants. In addition, the Department’s Wildlife and Sport Fish Restoration Program was not
selected for compliance testing for the SFY2006 Single Audit. The SFY2007 Single Audit
Report had not been issued by the end of our fieldwork.




                                            5
                                   Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below. We discuss the findings in more detail in
the Findings and Recommendations section.

       Unreported Barter Transactions. The Department should have but did not report
       barter transactions that occurred on lands managed with Program funds.

       Outdated Information Used for Fishing License Certifications. The Department used
       an outdated adjustment factor to eliminate duplicate license holders from its annual
       counts for FWS of fishing license holders in the State.

       Improvements Needed in Real Property Management and Disposals. The
       Department had not implemented two recommendations from our prior audit report
       regarding property management and disposal.

Findings and Recommendations

A.     Unreported Barter Transactions

       Grantees are permitted to earn income from grant-supported activities, but they must
       account for the income in an agreed upon manner. The Department earned “barter”
       income under 11 barter agreements on its Wildlife Habitat Management Areas (WHMAs)
       during SFYs 2006 and 2007. Grants FW-17-P-23 and FW-17-P-25 provide funding for
       wildlife habitat activities and development on these WHMAs. The barter agreements
       allow farmers to graze their livestock and/or grow crops on these WHMAs in exchange
       for providing services to the Department, such as weed control, installation of fencing,
       and irrigation. These services are also intended to improve and maintain wildlife habitat
       for a variety of species, and therefore directly related to grant-supported wildlife
       management activities. The Department should have, but did not, report the value of
       those services as program income on the grants’ financial status reports (SF-269), which
       summarize grant income and expenditures for the FWS.

       The Code of Federal Regulations (43 C.F.R. § 12.65) defines program income as gross
       income received by the grantee directly generated by a grant-supported activity, or earned
       only as a result of the grant agreement during the grant period. The regulations also
       require a grantee to deduct program income from the original total allowable
       expenditures to determine net allowable expenditures. The grantee may also use the
       program income as additional funds to support the grant objectives, or report the program


                                                6
income in an alternative method, if approved by the grantor in accordance with the FWS
Manual 522 FW 19, Program Income.

According to Department officials, they requested guidance from FWS on how to report
barter transactions, but FWS had no clear guidance on reporting requirements for barter
transactions. Therefore, they did not report the barter transactions on the SF-269s.
However, they did maintain detailed files for each WHMA and all contracts, leases,
requests for proposals, and agreements in lieu of payments.

We note that FWS recently issued guidance (522 FW 19, Exhibit 1, issued February 20,
2008) that specifically states program income does not include cooperative farming and
grazing arrangements when the grantee “designs the farming or grazing activities to
advance their fish or wildlife management objectives for the benefit of the sporting public
and the resource.” We do not believe this guidance covers the barter situation in
Wyoming, in which the farming and grazing activities are allowed in exchange for other
services, not for any benefit the farming and grazing activities might provide to wildlife.

The SF-269 did not include program income earned from barter services. If the FWS
required such income to be deducted from the total allowable expenditures, the
Department could have been reimbursed in excess of the allowable federal share of grant
expenditures.

Recommendations

We recommend that FWS work with the Department to:

1. determine whether the unreported barter services for FYs 2006 and 2007 affected total
   allowable grant expenditures, and if they did, resolve any excess grant reimbursements
   that may have resulted; and

2. ensure that the Department reports barter services on the SF-269s and treats the value
   of those services in accordance with the grant agreement and federal and State
   regulations.

Department Response

Department officials disagreed with the finding. They stated that it is their understanding
that program income does not include cooperative farming and grazing activities when
the grantee designs the activities to advance fish or wildlife management objectives for
the benefit of the sporting public and the resource. They provided documentation to
FWS to demonstrate the activities in question did benefit the public and the resource.

FWS Response

FWS Regional officials determined that the Department should not treat the barter
income in question as program income. They stated that the Department provided
                                         7
     adequate documentation in their response to show that the value received from barter
     transactions involving cooperative farming and grazing activities meet the revised criteria
     of Amendment 1 dated February 20, 2008.

     OIG Comments

     Based on the Department and FWS response, we consider the recommendations resolved
     and implemented.

B.   Outdated Information Used for Fishing License Certifications

     Each State is responsible for certifying and reporting to FWS the number of fishing
     license holders in the State each year. To ensure the Department did not count more than
     once those individuals who purchase multiple fishing licenses, it conducted an analysis to
     determine how many individuals hold multiple licenses. Based on this analysis, the
     Department developed a correction factor that it applied to the count of total license
     holders to calculate the number of unique license holders. The Department used a
     correction factor from a 1997 analysis to eliminate potential duplicate fishing license
     holders from its annual fishing license certification for license years ended December 31
     of 2005 and 2006. However, the analysis was outdated after license year 2002.

     Under 50 C.F.R. §§ 80.10 (a) and (b), States must provide to FWS information on the
     number of persons holding paid fishing licenses in the State in the preceding year. This
     regulation also requires the director of the State fish and wildlife agency to certify that
     the information is accurate. In addition, 50 C.F.R. § 80.10 (c)(5) prohibits individuals
     who hold more than one license to fish from being counted more than once as a fishing
     license holder. Finally, the FWS Manual (522 FW 2.7(1), Grantee Administration)
     recommends that States conduct surveys to determine and adjust for duplicate license
     holders every 5 years, or sooner if there is a change in the license structure.

     Department officials told us that they continued using the 1997 correction factors because
     they anticipated implementing an automated license system prior to the study becoming
     outdated. The automated system was in place in 2001, but we were told that due to
     various factors, it was not implemented until March 2008. An automated system may
     allow for the use of alternative methods to eliminate duplicate license holders from the
     annual counts.

     The number of paid fishing license holders reported by the Department could be
     overstated or understated because the numbers in the fishing license certification were
     determined using outdated adjustment factors. Because the State receives its annual sport
     fish apportionment of grant funds based, in part, on the number of license holders, we
     believe that accurate counts are necessary to assure that each State receives its fair share
     of funds.




                                               8
           Recommendation

           We recommend that FWS require the Department to conduct a new analysis for fishing
           license sales and, if necessary, revise the adjustment factors currently being used to
           eliminate duplicate license holders; or to develop, document, and implement an
           alternative methodology for identifying and removing duplicate license holders in the
           new automated system.

           Department Response

           Department officials concurred that the model used since 1998 for annually determining
           the number of anglers with paid fishing licenses had not been updated. However, they
           stated that they feel the model has not overstated angler license holder numbers. A new
           system was developed for calendar year 2008 and the officials believe that it should meet
           license certification requirements.

           FWS Response

           FWS officials stated that the Department’s comments would be considered in the
           preparation of the Corrective Action Plan.

           OIG Comments

           Based on the Department and FWS response, additional information is needed in the
           corrective action plan, including:

               •   the specific action(s) taken or planned to address the recommendation;

               •   targeted completion dates;

               •   titles of officials responsible for implementing the actions taken or planned; and

               •   verification that FWS headquarters officials reviewed and approved of actions
                   taken or planned by the Department.

C.         Improvements Needed in Real Property Management and Disposals

           During our current audit, we found that two recommendations from our prior audit report
           were considered by the Department of the Interior Office of Assistant Secretary for
           Policy, Management and Budget (PMB)2 to be unimplemented (recommendations A.1
           and A.3 in our prior audit report, R-GR-FWS-0030-2003). These recommendations
           pertain to the control and disposal of real property (land) acquired with Program grant
           funds. Under 50 C.F.R. § 80.19, each State must maintain current and complete property
           records in accordance with the requirements contained in the FWS Manual and OMB
           Circular A-102. Additionally, 43 C.F.R. § 12.71(c) requires grantees to request
2
    PMB is responsible for tracking the implementation of audit recommendations.
                                                         9
disposition instructions from the awarding agency when the grantee no longer needs land
that was purchased with grant funds. Additional requirements regarding disposal and
loss of control are contained in 50 C.F.R. § 80.14. We found in our prior audit that the
Department needed to improve its property records and to address problems identified
with disposal of real property acquired with grant funds.

We recommended in our prior audit (recommendation A.1) that FWS require the
Department to develop and maintain a list of its real property that identifies the source of
funding - license fees, Program grant funds, or other funds. We also recommended
(recommendation A.3) that the Department apply the provisions of 50 C.F.R. § 80.14(b)
and 43 C.F.R. § 12.71(c) to each parcel of land purchased with Program grant funds that
it improperly disposed of.

In response, the Department provided a real property listing to FWS and, at the time of
our audit, was working with FWS to resolve the disposal of real property items identified
in the prior audit report. We believe that the Department has made progress in addressing
recommendation A.1, and we are therefore not repeating it here.

Additionally, we note that recommendation A.3 has not been fully implemented, and we
are therefore repeating the recommendation below. The implementation of this
recommendation will be tracked under the tracking process for the prior audit, and any
documentation pertaining to it should be submitted to PMB.

Repeat Recommendation

We recommend that FWS work with the Department to ensure that the provisions of 50
C.F.R. § 80.14(b) and 43 C.F.R. § 12.71(c) were applied to each of the disposal of land
interests that involved real property acquired with Federal Assistance [the Program]
funds (recommendation A.3 in our prior audit report, R-GR-FWS-0030-2003).

Department Response

Department officials indicated that the FWS accepted the final resolution of
recommendation A.1 and A.3 from the prior audit, as outlined in the Corrective Action
Plan dated March 2005.

FWS Response

FWS officials stated that they consider audit recommendation A.3 from the previous
audit report resolved and implemented as of July 10, 2008. FWS included in their
response a copy of the letter notifying the State as such. FWS officials requested that we
close the recommendation.




                                         10
OIG Comments

We referred both recommendations A.1 and A.3 from the previous report to PMB for
tracking. Once we refer recommendations to PMB for tracking, we do not have the
authority to close them. FWS officials must therefore send documentation showing they
consider these recommendations resolved and implemented to PMB.




                                      11
                                                                              Appendix 1


                     WYOMING GAME AND FISH DEPARTMENT
                   FINANCIAL SUMMARY OF REVIEW COVERAGE
                          JULY 1, 2005, THROUGH JUNE 30, 2007


                   Grant Number        Grant Amount      Claimed Costs

                    FW-17-P-23           $11,430,099       $13,545,844

                    FW-17-P-24             $1,153,594         $633,967

                    FW-17-P-25           $12,102,018        $7,476,629*

                    FW-17-P-26             $1,044,812         $639,983*
                    TOTALS               $25,730,523       $22,296,423

*At the end of our fieldwork, the Game and Fish Department had not submitted SF-269s to the
FWS for these two grants. We used the net payments from the FWS iFAIMS for Claimed Costs.




                                            12
                                                               Appendix 2


      WYOMING GAME AND FISH DEPARTMENT
               SITES VISITED

                       Headquarters

                         Cheyenne


                     Regional Offices

                          Casper
                          Laramie


           Wildlife Habitat Management Areas

                    Cottonwood Draw
                           Jelm
                         Rawhide
                  Springer/Bump Sullivan


                   Public Access Areas

                        Gelatt Lake
                   Grayrocks Reservoir
                        Lake Hattie
                 Laramie River-Monolith
                      Meeboer Lake
              North Platte River-Various sites
                  Twin Buttes Reservoir


                    Other Sites Visited

                Dan Speas Rearing Station
                Game and Fish Laboratory
                    Glendo State Park
Tom Thorne/Beth Williams Wildlife Research Center at Sybille
          Wyoming State Veterinary Laboratory


                            13
                                                                              Appendix 3


                   WYOMING GAME AND FISH DEPARTMENT
              STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations              Status                          Action Required

A.1 and A.2        Resolved and implemented     No further action required


B                  FWS management concurs       Additional information is needed in the
                   with the recommendation,     corrective action plan, including the
                   but additional information   actions taken or planned to implement
                   is needed, as outlined in    the recommendation, targeted completion
                   the “Actions required”       date(s), the title of official(s) responsible
                   column.                      for implementation, and verification that
                                                FWS officials reviewed and approved of
                                                actions taken or planned by the State.
                                                We will refer recommendations not
                                                resolved and/or implemented at the end
                                                of 90 days (after December 26, 2008) to
                                                the Assistant Secretary for Policy,
                                                Management and Budget for resolution
                                                and/or tracking of implementation.


C (Repeat          Repeat Recommendation        Provide documentation regarding the
recommendation)    A.3 from our prior report    implementation of this recommendation
                   (R-GR-FWS-0030-2003).        to PMB.
                   PMB considers this
                   recommendation resolved
                   but not implemented.




                                       14
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
